<html>
<title> - THE TRUMP ADMINISTRATION'S SYRIA POLICY: PERSPECTIVES FROM THE FIELD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE TRUMP ADMINISTRATION'S SYRIA
                  POLICY: PERSPECTIVES FROM THE FIELD

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2019

                               __________

                           Serial No. 116-68

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-305 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       
                       
                       
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                      Dan Rebnord, Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on October 23, 2019.................................     1

                               Witnesses

Ilham Ahmed, Accompanied by Translator, Co-President, Syrian 
  Democratic Council
    Oral statement...............................................     6

Martin Palmer, Former Special Forces Officer, 5th Special Forces 
  Group
    Oral statement...............................................     8

Emerita Torres, Director of Programs and Research, Soufan Center
    Oral statement...............................................    10

Bernice Romero, Senior Director, International Humanitarian 
  Response, Save the Children
    Oral statement...............................................    12

John Glaser, Director of Foreign Policy Studies, The Cato 
  Institute
    Oral statement...............................................    14

*Written opening statements, and the written statements for 
  witnesses are available at the U.S. House Repository: https://
  docs.house.gov.

                           Index of Documents

The documents listed below are available at: https://
  docs.house.gov.

* Unanimous Consent: Photos from Ms. Ilham Ahmed, Executive 
  President, Syrian Democratic Council; submitted by Chairman 
  Lynch.
* ``Why is Turkey Fighting the Kurds in Syria?'', New York Times, 
  October 9, 2019; submitted by Rep. Hice.
* ``Who Can Trust Trump's America? The consequences of betraying 
  the Kurds'', The Economist, October 18, 2019; submitted by Rep. 
  Cooper.

 
  THE TRUMP ADMINISTRATION'S SYRIA POLICY: PERSPECTIVES FROM THE FIELD

                              ----------                              


                      Wednesday, October 23, 2019

                   House of Representatives
                  Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:37 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Cooper, Welch, Rouda, 
Wasserman Schultz, DeSaulnier, Hice, Gosar, Foxx, Cloud, Green, 
and Higgins.
    Also present: Representatives Pressley and Massie.
    Mr. Lynch. The hearing will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Today's hearing is entitled ``The Trump Administration's 
Syria Policy: Perspectives From the Field.'' I'll now recognize 
myself for five minutes for an opening statement.
    Before I begin, I'd like to take a moment to remember my 
friend and our chairman, Elijah Cummings, who we lost almost 
one week ago.
    Like others on this committee, I had the pleasure and 
privilege to call Elijah my friend for almost 20 years as we 
worked on the many issues that have confronted Congress and our 
country. Mr. Cummings has bequeathed a legacy of compassionate 
service to those families in our society who still struggle to 
receive the full promise of the American Dream.
    While he had an abiding faith in the goodness and kindness 
of humankind, he was firm in his commitment to use his many 
talents and the power of his position to weigh in on behalf of 
the disenfranchised and to reduce the suffering that he saw in 
this world.
    Elijah lived his life in a meaningful cause: the cause of 
justice, the cause of liberty, and the cause of equality for 
all. We and our Nation would be well-served to follow his 
example. His spirit and his presence here on this committee 
will be sorely missed.
    Today, we will examine the Trump administration's sudden 
decision to withdraw U.S. forces from northern Syria and 
abandon our Kurdish allies.
    As everyone knows, a little more than two weeks ago, 
President Trump had a phone call with Turkish President 
Erdogan. We don't know exactly what the transcript of that 
conversation reveals, but we do know that the White House 
released the following statement about the call, and I quote it 
here.
    Quote, ``Turkey will soon be moving forward with its long-
planned operations into northern Syria. The United States Armed 
Forces will not support or be involved in the operation, and 
United States forces, having defeated the ISIS territorial 
'Caliphate,' will no longer be in the immediate area,'' close 
quote.
    Nowhere in that statement is any indication that President 
Trump tried to delay President Erdogan's planned operation. 
Indeed, I think it could be interpreted that his statement 
facilitated that incursion.
    Nowhere in the statement did the White House condemn 
Turkey's invasion and the destabilizing effects it would have 
across the region. Nowhere did the statement warn about the 
hundreds of thousands of civilians who would be displaced; only 
that the United States military would no longer be in the 
immediate vicinity.
    With that, President Trump ceded virtually all of America's 
ability to influence events on the ground in northern Syria.
    He abandoned our allies, the Kurdish-led Syrian Democratic 
Forces, or SDF, who for years were our partner force and the 
most effective fighters against the Islamic State in Iraq and 
Syria. As a result, the SDF will no longer be able to apply 
continued counterterrorism pressure against ISIS, which will 
almost inevitably allow them to reemerge.
    Equally concerning is that the power vacuum left by the 
United States is already being filled by the Syrian regime of 
Bashar al-Assad, Russia, and Iranian militias. President 
Trump's uninformed, whimsical, and indifference-to-loyalty-and-
life decisions on the phone with President Erdogan will result 
in disastrous consequences for U.S. national security and has 
undermined U.S. credibility on the world stage.
    According to one Kurdish fighter--and this is a quote--
``America will never again be able to count on the Kurds to 
fight ISIS. We don't trust America anymore,'' close quote. This 
is very important, so let me read the Kurdish view again. 
Quote, ``We don't trust America anymore,'' close quote.
    Trump's betrayal of an ally and what it says about America 
will inflict severe damage to American diplomacy, military 
strategy, and foreign policy for many years to come. But don't 
take my word for it. Even President Trump's most ardent 
supporters and former administration officials have criticized 
his decision. Senate Majority Leader Mitch McConnell has 
described the withdrawal of U.S. forces from Syria as, quote, 
``a grave mistake,'' close quote. Senator Lindsey Graham has 
called the decision ``shortsighted and irresponsible.'' Former 
Secretary of Defense Jim Mattis said, quote, ``If we don't keep 
the pressure on them, ISIS will reemerge. It's absolutely a 
given that they will come back.'' And, last week, 129 of my 
Republican colleagues voted alongside 225 Democrats to oppose 
President Trump's decision to withdraw U.S. forces from 
northern Syria.
    Today, we have the great privilege of welcoming Ilham 
Ahmed, Executive President of Syrian Democratic Council; and 
Marty Palmer, a formal Special Forces officer who fought 
alongside our Kurdish SDF allies in northern Syria.
    We're also joined by Bernice Romero from Save the Children 
to provide an update on the humanitarian situation in Syria, as 
well as Emerita Torres, director of policy and research at The 
Soufan Group and a former U.S. diplomat.
    We're also pleased to welcome John Glazer, director of 
foreign policy studies at the Cato Institute.
    A quick logistics note for our members. As you have 
noticed, Ms. Ahmed is accompanied today by a translator, Mr. 
Civiroglu, which will require additional time to interpret 
questions and answers between members and the witnesses. While 
I intend to hold members to the usual five-minute time limit 
for questions, I will allow extra time, at my discretion, if I 
determine that fairness requires granting a member additional 
time, whether that member is a Democrat or Republican, to 
question Ms. Ahmed.
    I would like to again thank all of our witnesses for your 
willingness to help this committee with this work.
    The chair now recognizes the ranking member, Mr. Hice of 
Georgia, for five minutes for an opening statement.
    Mr. Hice. Thank you very much, Mr. Chairman.
    I likewise appreciate your comments about Chairman 
Cummings. Obviously, he and I and many on this side disagreed 
on many issues, but I will say he was always very respectful. I 
had many conversations with him outside of this room, and he 
was always respectful and will be greatly missed. I appreciate 
your comments.
    And I appreciate having this hearing today. Likewise, I 
want to thank all our witnesses for being here. I especially 
want to thank Mr. Palmer for your service to our country.
    But, regretfully, many members today cannot be here because 
of the House majority having created a scheduling conflict. 
And, Mr. Chairman, as you know, the House majority has 
scheduled a deposition today as part of the illegitimate 
impeachment inquiry. As a result, the House majority has forced 
members to choose between this hearing and the deposition, and, 
despite the importance of this topic, I believe the choice was, 
unfortunately, very easy for other members to make.
    Arbitrary rules imposed by Chairman Schiff have created an 
unprecedented secrecy around the inquiry. Next week, members 
will be able to review the transcript of this hearing and 
followup with additional questions at our leisure, but the 
deposition in this partisan impeachment inquiry is not so cut-
and-dry.
    The rules on who can access and how to access deposition 
transcripts are unclear and constantly changing. Members of 
this committee who have sought to review transcripts have been 
turned away. For those few lucky members the Democrats will let 
peek at the transcript, Chairman Schiff is now insisting that 
Republican members have Democrat staff babysitters.
    Who knows what other rules are coming? With changing rules, 
shifting targets, and unprecedented lack of transparency, the 
Democrats' impeachment obstacle course unfortunately demands 
Republican members' whole attention.
    So, back to the topic that we're here to discuss today, 
first, I'd like to say that the videos emerging of individuals 
throwing rotten food at U.S. soldiers is abhorrent. Those men 
and women have put everything on the line to further the goal 
of a safe and secure Syria and should not be treated that way.
    Beginning in 2011, Syria has been in a state of unrest. It 
began with the Arab Spring, which led to a civil war, all while 
the previous administration stood on the sideline.
    Then, President Obama drew his now-infamous red line. 
President Obama said that if Syrian dictator Bashar al-Assad 
were to use chemical warfare, it would warrant United States 
military intervention. About a year later, when Assad did use 
chemical weapons on his own civilians, the Obama Administration 
gave the keys to Russia in negotiating with Syria. While there 
are now fewer chemical weapons in Syria, Russia has gained 
significant influence.
    When Assad used chemical weapons again in 2018, President 
Trump did not balk. Instead, he launched a military strike on 
significant Syrian assets, sending a clear message to the Assad 
regime that the use of chemical weapons will not be tolerated. 
The continued efforts by the Trump administration have led to 
the defeat of the ISIS caliphate and a significant weakening of 
Islamic extremism in the region.
    Just a few weeks ago, President Trump announced the 
decision to withdraw troops from the border between Syria and 
Turkey. The role of the U.S. military is to protect vital U.S. 
interests, not to be a unilateral nation-builder or arm 
insurgencies against a NATO ally.
    Previous administrations' actions, from arming insurgents 
in Latin America to intervening in Iraq and Libya, have proven 
that unilateral U.S. military action can indeed be problematic, 
and this situation is no different.
    The Syrian Democratic Forces, a U.S.-backed insurgency, is 
compromised of members of the YPG. The YPG is a splinter group 
of the PKK, a U.S. and Turkey registered foreign terrorist 
organization. It's no wonder why Turkey is uncomfortable with 
this alliance.
    An article titled, ``Why is Turkey Fighting the Kurds in 
Syria?'' in The New York Times further explains the connection. 
Mr. Chairman, I would ask unanimous consent to submit this for 
the record.
    Mr. Lynch. Without objection.
    Mr. Hice. Thank you.
    I'm sure that everyone in this room, as well as the Trump 
administration as a whole, are devoted to the safety and 
security in Syria and the surrounding region.
    Moreover, since we are spending today discussing borders, I 
think it's an appropriate time that we recognize that the 
Turkish-Syrian border is almost 6,000 miles away. And while, no 
question, this issue does merit review, it's concerning to me 
that Democrats are more focused on a border crisis 6,000 miles 
away than the crisis at our own southern border.
    During Fiscal Year 2019 alone, Customs and Border Patrol 
apprehended almost 1 million migrants at the southern border--
this is an 88-percent increase over the previous year--many of 
them having criminal records. So I continue to call on my 
Democratic colleagues to provide our law enforcement men and 
women the resources they need to solve this crisis.
    Again, Mr. Chairman, I want to thank you for this hearing, 
and each of our witnesses, and I look forward to hearing the 
testimonies and the questions ahead. I yield back.
    Mr. Lynch. I thank the gentleman.
    Just as a matter of clarification, the rules for access to 
hearings and depositions have not changed, at least in the past 
10 years. So they continue as they were under the Republican-
led House, and those rules are still in place today. 
Hopefully----
    Mr. Hice. Mr. Chairman, I would beg to differ, but I 
realize this is not the time.
    Mr. Lynch. Right.
    Mr. Hice. We have members not allowed to see those 
transcripts.
    Mr. Lynch. Well--thank you, Mr. Hice.
    As mentioned, we are honored to be joined today by Ilham 
Ahmed, Executive President of the Syrian Democratic Council. 
Ms. Ahmed has been part of the Kurdish struggle for freedom and 
democracy since the 1990's, with a particular focus on women's 
rights. She is joined today by a translator, Mutlu Civiroglu.
    Ms. Ahmed, I'd just like to thank you for being here and 
for your sacrifice on behalf of the international community in 
the fight against ISIS.
    We are also very pleased to welcome Mr. Marty Palmer, who 
graduated from the United States Military Academy at West Point 
and has served combat tours of duty in both Iraq and Syria and 
was awarded the U.S. Army General Douglas MacArthur Leadership 
Award for outstanding junior officer leadership. He's now 
pursuing his MBA at Columbia Business School.
    Mr. Palmer, thank you for your service and for helping this 
committee with its work.
    We're also joined by Ms. Emerita Torres, director of 
programs and research at The Soufan Center. In her 10-year 
career as a U.S. Foreign Service officer, Ms. Torres served 
diplomatic tours in Brazil; Pakistan; Colombia; Washington, 
DC.; and the U.S. Mission to the United Nations. Ms. Torres is 
also a graduate of New York University and the Harvard Kennedy 
School.
    We're also fortunate to welcome Ms. Bernice Romero, who is 
currently the senior director of international humanitarian 
public policy and advocacy at Save the Children. Ms. Romero 
also worked for several years as the advocacy and campaign 
director for Oxfam International, where she oversaw Oxfam's 
international campaigns of humanitarian crises, trade, aid, 
climate change, food security, health, and education.
    Our Nation's diplomats and humanitarians oftentimes are not 
recognized for their work and sacrifice in the way that they 
should. So I thank you all for being here and for your service.
    And, last but not least, we'd like to welcome Mr. John 
Glaser, director of foreign policy studies at the Cato 
Institute. His research interests include grant strategy, U.S. 
foreign policy in the Middle East, the rise of China, and the 
role of status and prestige motivations in international 
politics. Mr. Glaser has been a guest on a variety of 
televisions and radio programs and is the co-author with 
Christopher A. Preble and Trevor Thrall of ``Fuel to the Fire: 
How Trump Made America's Broken Foreign Policy Even Worse (and 
How We Can Recover).''
    Mr. Glaser, thank you for being here today as well, and we 
look forward to learning from your policy expertise.
    I'd now like to ask the witnesses to please rise to be 
sworn in, and that would include the interpreter, Mr. 
Civiroglu. Please rise and raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you very much.
    Let the record reflect that the witnesses have all answered 
in the affirmative.
    The microphones are sensitive, so make sure you please pull 
them up so that you can be heard.
    Without objection, your written statements will be made 
part of the record.
    With that, Ms. Ahmed, you are now recognized to give an 
oral presentation of your testimony.

   STATEMENT OF ILHAN AHMED, CO-PRESIDENT, SYRIAN DEMOCRATIC 
      COUNCIL, ACCOMPANIED BY INTERPRETER MUTLU CIVIROGLU

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Ahmed. I would like to thank you, Member of the 
Congress, for this support, and I would like to thank for this 
committee for this opportunity. My condolences for loss of your 
colleague.
    I came from Syria among the fight--heavy fight that has 
been ongoing for years. We have lived in that world moment by 
moment, at the same time by growing our hopes for a brighter 
future.
    Our peoples--Kurds, Arabs, Turkmens, Christians, Yazidis--
we built a society together, and we liberated 30 percent of the 
Syrian land. Under our self-rule, all faith, all religion were 
free to express themselves, live freely--Yazidis, Syriacs, 
Christians, and Muslims. Our hope was to continue living in 
harmony, peace after ISIS as well, and build a democratic 
Syria.
    In the fight against ISIS, we lost 11 fighters and 25 
people who sacrificed their body who were disabled in the 
fight. We appreciate American forces for their fight with us 
and the achievement we scored together.
    Unfortunately, after we liberated all these areas, the 
Turkish State has not given us opportunity to buildup the life 
that we were hoping for. Always continued to get threats over 
us--increased those threats.
    We had a very good relation with U.S. Government and the 
U.S. forces in terms of fighting against ISIS, but also 
realizing our hopes to build a democratic future, to build 
stability in the region, we received promises from America. 
They told us, we will continue fighting with you as long as 
Daesh is there, we will work together to make sure stability is 
there, and we're going to be in Syria until the political 
solution is achieved on the ground. These are the promises were 
given to us.
    When our free region came under attack, we asked the help. 
They told us, we have no power over there so we cannot help 
you. We were told, wherever our forces exist, we won't allow 
any attacks to those regions.
    For those reasons, we trusted the U.S., we trusted American 
forces. We thought, when there was an attack to this region, 
the U.S. will not allow that. We didn't expect them to fight on 
our behalf, but we were assured that they would not allow that. 
We put our hope to coexistence, to live together as of now with 
the people of the region.
    Even one day before the attack, we were under assumption 
that the airspace is going to be closed by the U.S. The safe 
zone mechanism that established with the U.S., we accepted, we 
agreed upon with that to prevent attack of Turkish State. We 
withdrew our forces. We destroyed the trenches on the border. 
We pulled out our heavy weapons. Our joint patrol on the border 
with U.S. and Turkish forces have already started.
    Unfortunately, after the phone call of Mr. Trump with Mr. 
Erdogan, we were told that the airspace is going to be open and 
our forces are going to be withdrawn from the border area. We 
were shocked, we were puzzled. We didn't hope that this would 
happen.
    As a result of this, we found ourselves in a fight with 
Turkish State. We defended ourselves. Turkish Government came 
to our homes, our lands, fought against us. Our forces were 
still fighting against ISIS and they were still chasing the 
sleeper cells of ISIS when the Turkish Government attacked us 
without any reason. We never had any threat against Turkish 
Government.
    As a result of this war, around 300,000 people were 
displaced, 250 people were killed, and a majority of them 
were--large number of these were kids, children. And 300 people 
are so far disappeared, unaccounted for.
    Moreover, the city of Sari Kani Ras al-Ain was devastated. 
It's razed as a result of air strikes, artillery attacks, and 
mortars. Our politicians were killed, heads [have] been cutoff. 
Open executions took place.
    The Turkish Government has been using--carried out crime 
against humanity. Chemical gas, phosphorus, has been used. 
Until now, we are not able to do inspections because we don't 
have means to get it inspected. What kind of weapon is that?
    We very much wanted to stop this war. We were always told 
that we cannot stop it.
    As of now, 100 kilometer in length and 32 kilometers in 
depth, our land, the Syria land, is occupied by the Turkish 
State. There are many ISIS presences under the name of--ISIS 
presence. These attacks [are] under the name of Syrian Army, 
Syrian National Army. They are now put into the region. They 
brought by Turkey. They swear at us that they're going to 
behead you. They chant the same slogans of ISIS. They are 
called opposition. Turkish Government called them opposition, 
but they are a different form of ISIS, which are put forward by 
Turkey.
    There were some attacks against the camps. Some ISIS 
members managed to escape. From the ISIS families, around 600 
people escaped--six French ISIS wives, two Belgian. And 10 more 
managed to escape. We don't know what nationality they are 
from. There's a big risk that, once more, the safety of the 
international community and the U.S. can be under threat again 
because of this situation. The guy who carried out the New York 
attack, he is captured--he is under our--he's kept by us now. 
He's detained by us now.
    The civilian use station, now there are some hopes that 
Turkish Government is going to stay there, is going to take 
care of the station. This is very wrong. But there is a reality 
that our geography is now divided. The groups that are 
controlled by Turkish Government continue their attacks against 
us.
    Mr. Lynch. Mr. Civiroglu, you have to instruct the witness 
that we are over time.
    Mr. Civiroglu. Sure.
    Ms. Ahmed. The attack were continuing. Even yesterday, 
there was some attack. One of our friends, a female fighter, 
her body was mutilated, and these people were stepping on her 
body.
    Mr. Lynch. I understand.
    I understand you also have some photographs. So I'd like to 
make a motion that Ms. Ahmed's photographs are entered into the 
record. I understand that members have been provided copies of 
those, but if you're willing to submit the originals, we'll put 
those into the record.
    Thank you.
    Ms. Ahmed. This is a burned kid I mentioned earlier. We 
suspect there was a chemical gas used. This kid.
    Mr. Lynch. Okay.
    Ms. Ahmed. A Christian kid has been murdered.
    The displacement of civilians.
    A kid whose leg was cutoff.
    Massacres Turkish Government carried out.
    This is a body of a female fighter. Her body is mutilated 
in this photo.
    These are the soldiers, these are the fighters the Turkish 
Government is claiming to be opposition.
    Mr. Lynch. Okay. Those photographs have been entered into 
the record.
    Mr. Lynch. I want to thank you for your testimony.
    Mr. Lynch. Mr. Palmer, you're now recognized for five 
minutes.

   STATEMENT OF CAPTAIN MARTIN PALMER (RET.), FORMER SPECIAL 
           FORCES OFFICER, FIFTH SPECIAL FORCES GROUP

    Captain Palmer. Chairman Lynch, Ranking Member Hice, and 
members of the subcommittee, thank you for inviting me here 
today. My name is Martin Palmer. I'm here to testify to my 
personal experience working alongside the Syrian Democratic 
Forces, or SDF, during my time in Active Duty, not to comment 
on U.S. policy or military strategy in Syria.
    By way of background, after graduating from West Point in 
2009, I spent nine years in the Army, first as an infantry 
officer with the 82d Airborne Division and later as a Special 
Forces officer with Fifth Special Forces Group.
    During my military service, I was awarded the Meritorious 
Service Medal, two Bronze Star medals for meritorious service, 
and was the 2018 recipient of the U.S. Army General Douglas 
MacArthur Leadership Award. I served three combat deployments: 
to Afghanistan in 2011 and 2012, Iraq in 2016, and Syria in 
2017. I left Active Duty in July of last year.
    In 2017, I spent seven months in Syria serving as the 
commander of a Special Forces detachment. During this 
deployment, my team of Green Berets partnered with the SDF, of 
which the Kurds compromised a large portion. Through numerous 
combat operations, I saw firsthand the commitment, dedication, 
and resiliency of the SDF. Their efforts proved critical to our 
ability to combat the Islamic State.
    During a combat patrol one night on the front lines, my 
team and I received effective machine gunfire from multiple 
ISIS positions. Upon receiving contact, the SDF soldiers at our 
position fought alongside us as we attempted to locate and 
destroy the enemy positions. Within minutes, the SDF area 
commander arrived at my position with additional soldiers and 
was by my side during the fight, even as bullets peppered our 
position, and we were able to eliminate the threat.
    This type of stand-and-fight mentality is not one I often 
witnessed in other partner forces during my previous 
deployments to the Middle East. This was the first of many 
experiences during my time in Syria when I observed firsthand 
the commitment, bravery, and dedication of the SDF as they 
partnered with my detachment in the fight against the Islamic 
State.
    Beyond their admirable qualities, the Kurds were an 
effective partner force. They made remarkable progress in 
turning back the Islamic State and liberating several key 
Islamic State-held towns, including its self-proclaimed 
caliphate of Raqqa. The Kurds raised their hand to fight the 
Islamic State at a time when few else did. I witnessed these 
tactical successes regularly on the battlefield as the SDF 
fought with discipline and resolve.
    On numerous occasions when the SDF and my team would drive 
through areas recently liberated from Islamic State control, 
the Syrian villagers would cheer and even cry--a moving 
testament to the immense contribution the SDF has made in 
liberating people from the horrors of life under the Islamic 
State.
    But this success came at a cost. SDF casualties were a 
regular and tragic occurrence during my time in Syria, and 
thousands of Kurdish soldiers gave their lives for this 
mission.
    During one operation, an Islamic State fighter detonated a 
car bomb at one of the positions of the SDF unit with whom I 
was partnered. The car bomb instantly killed eight SDF soldiers 
and wounded close to a dozen more. My team worked to provide 
first aid for the wounded, many of whom had gruesome injuries. 
I saw firsthand, in a very real and powerful way, the magnitude 
of the sacrifice the Kurds were making in the fight against the 
Islamic State.
    Moreover, the SDF continued their offensive the next day, 
demonstrating a resiliency and commitment that was prevalent 
throughout my deployment.
    Our relationship with the SDF was a true and critical 
partnership. Just as my team benefited from their commitment 
and tactical abilities, the SDF could also not have been as 
successful against the Islamic State without our support.
    During one operation, SDF fighters were within a few 
hundred yards of a strategic Islamic State objective when they 
started receiving sustained effective fires and suffered 
several casualties. The SDF did not have the capability to 
unilaterally suppress the threat and were prepared to withdraw 
to a safer position to prevent further casualties, negating 
days of hard-fought gains. However, my team was able to provide 
the necessary combat power to ensure the safety of the SDF, 
enabling them to successfully press forward with their mission: 
seizing the Islamic State position. This was emblematic of our 
relationship with the SDF--a partnership built on mutual trust, 
support, and necessity.
    These examples are but of a few of the many instances that 
illustrate how valuable the SDF were as a partner force for my 
detachment. The SDF stood shoulder-to-shoulder with us and 
fought courageously and effectively time and time again. Their 
loyalty and dedication to the cause was pervasive in every 
operation.
    I will always value the relationship my team had with the 
SDF and will never forget the sacrifice they made for the cause 
of defeating the Islamic State.
    Thank you again, Mr. Chairman, Ranking Member Hice, and 
members of the subcommittee. I hope my testimony will help 
shine a light on what it was like to work shoulder-to-shoulder 
with Kurdish soldiers through the seven months of my deployment 
to Syria.
    Thank you.
    Mr. Lynch. Thank you, Mr. Palmer. Thank you for your 
service and your willingness to testify before this committee.
    Ms. Torres, you're now recognized for five minutes for a 
presentation of your oral testimony.

STATEMENT OF EMERITA TORRES, DIRECTOR OF PROGRAMS AND RESEARCH, 
       THE SOUFAN CENTER, DEPARTMENT OF HOMELAND SECURITY

    Ms. Torres. Thank you, Chairman Lynch, Ranking Member Hice, 
distinguished members. Thank you for hearing my testimony 
today. Today, I will emphasize how The Soufan Center perceives 
the consequences of our policy reversal in Syria on our ability 
to defeat ISIS.
    The President's decision to withdraw U.S. troops from 
northern Syria, which allowed for a Turkish military invasion, 
is a foreign policy disaster that has plunged Syria further 
into chaos. Beyond lives lost, geopolitical consequences, and a 
scar on U.S. credibility, this decision is a gift to ISIS.
    Within hours of the President's announcement, two ISIS 
suicide bombers attacked the base of the Syrian Democratic 
Forces in Raqqa. ISIS social media has repeatedly mocked the 
SDF over the last week, calling it an abandoned American ally.
    ISIS websites reported 27 attempted attacks against the SDF 
in the week following the invasion, compared with an average of 
10 attacks over each of the previous three weeks. The leader of 
ISIS, al-Baghdadi, urged ISIS followers to free jihadists and 
their families from detention camps in an attempt to replay its 
infamous ``Breaking the Walls'' campaign.
    In August 2019, the inspector general report concluded that 
ISIS was resurging in Syria and solidifying its capabilities 
needed to lead an insurgency in Iraq. While the fall of Baghouz 
in March 2019 was considered the end of the physical caliphate, 
remnants of ISIS still exist throughout Iraq and Syria, 
including sleeper cells. The group also maintains a global 
footprint through a bevy of affiliate groups.
    We should be gravely concerned about the conditions of the 
ISIS prisons where 12,000 ISIS fighters are being held and 
secured by the Syrian Democratic Forces. The SDF made clear 
long before the troop withdrawal that they lacked the capacity 
to detain these fighters.
    Following the Turkish invasion, the SDF has been departing 
these positions, leaving the prisons vulnerable. There have 
been no concrete plans about how these prisons will be secured. 
And now that the United States has abandoned the Kurds, why 
would we expect them to do us any more favors?
    ISIS militants and affiliates are escaping prisons and 
camps. Last week, Iraq's Defense Minister acknowledged that 
several ISIS militants have crossed into Iraq. According to 
Belgian authorities, five of their citizens are no longer 
present in SDF-controlled locations.
    Over 800 people affiliated with ISIS, largely women and 
children, have escaped the Ayn Issa camp in northern Syria. Al 
Hol camp, where close to 70,000 people reside, is proving to be 
a breeding ground for ISIS, as pro-ISIS sympathizers are 
radicalizing others and organizing in the camp.
    Taken together, the overcrowding, lack of security, and 
squalid conditions of these camps are a recipe for disaster.
    We've seen this movie before. We already know how it ends. 
During the surge in Iraq, tens of thousands of Iraqis were held 
in U.S. detention centers, including in Camp Bucca. In these 
overcrowded camps, the next iteration of terror emerged. Led by 
Baghdadi, these prisoners became the future foot soldiers of 
ISIS. The group's nascent leadership engineered the ``Breaking 
the Walls'' campaign that freed thousands of fighters.
    The issue of overcrowded detention centers spawning another 
wave of terror is relevant once again in Syria. ISIS maintains 
provinces from Nigeria to Afghanistan, to Indonesia, and across 
the Middle East. The group has planned or inspired heinous 
terrorist attacks globally, including in the United States. 
ISIS's ability to organize should not be underestimated, and 
the risk of prison and camp escapes must be taken seriously.
    The U.S. policy change in Syria has empowered our 
adversaries and betrayed our allies. The Kurdish forces have 
been the U.S.'s most trusted partner in fighting ISIS over the 
last five years. The Kurds lost 11,000 fighters in the battle 
and have taken up the immense responsibility of guarding nearly 
120,000 people in camps and prisons across Syria. The presence 
of U.S. troops on the border, even if small in number, was 
intended to both support the Kurds as they engage in fighting 
ISIS for us and to serve as a tripwire to deter Turkish attacks 
on the SDF.
    I conclude by highlighting three recommendations.
    First, military options should never be the only solution 
to conflict. We need diplomacy. The United States should 
encourage Turkey to pursue dialog with the Kurds.
    Second, ISIS is resurging, and we need a plan. We must 
mitigate the risk of escaping ISIS fighters to ensure that they 
cannot cross borders into neighboring countries. To do this, we 
need to open lines of communication with the power brokers in 
the country and the region.
    Third, Western governments must take responsibility for 
their citizens in ISIS prisons and camps. They should take 
their citizens back home, where they can undergo risk 
assessments, face prosecution, and engage in rehabilitation and 
reintegration efforts. Ignoring this problem will only fuel the 
cycle of marginalization and grievances that attract 
individuals to join terrorist groups in the first place.
    In closing, the U.S. troop withdrawal from Syria is self-
defeating, damages American credibility, and walks back much of 
the hard-earned gains made by the SDF and the global coalition 
to defeat ISIS.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Mr. Lynch. Thank you, Ms. Torres.
    Ms. Romero, you're now recognized for a five-minute 
presentation of your testimony.

  STATEMENT OF BERNICE ROMERO, SENIOR DIRECTOR, INTERNATIONAL 
            HUMANITARIAN RESPONSE, SAVE THE CHILDREN

    Ms. Romero. Good afternoon. I first want to thank Chairman 
Lynch and Ranking Member Hice for today's hearing and the 
opportunity to speak to the humanitarian crisis that is 
devastating Syrian communities.
    The humanitarian needs across Syria remain at staggering 
levels. Nearly 12 million people are in need of humanitarian 
assistance. Five million of these are children. In fact, half 
of all children now living in Syria have grown up knowing 
nothing but war.
    Save the Children has reached millions of children inside 
Syria and in the refugee-hosting countries. We have seen how 
children suffer in this conflict, enduring physical and mental 
wounds that may be irreparable. With schools closing and 
minimal support for mental health, we are witnessing in real-
time the loss of a generation.
    My remarks will focus on three topics: northeast Syria, 
including the impact of recent hostilities and issues related 
to foreign families linked to ISIS; northwest Syria; and, 
finally, the regional refugee response and the rising threats 
of forced returns.
    In the past two weeks, more than 160,000 people, including 
more than 70,000 children, have been displaced in the fighting 
in northeast Syria. Many are living in camps and informal 
settlements, which are short on humanitarian supplies and basic 
infrastructure.
    Despite the recent cease-fire announcement, we've seen 
continued hostilities. Children have been killed and injured in 
the fighting, health facilities and schools have been attacked, 
and other services have been shutdown.
    Save the Children is assisting the newly displaced by 
providing goods and services such as psychological first aid, 
education, nutrition, and health screenings. But while we and 
others are able to continue our programs in some areas, this 
new instability has severely restrained the response, with many 
NGO offices and programs suspended or closed down.
    There is much the U.S. Government can do to help improve 
the situation. Primarily, the U.S. must wield its diplomatic 
leverage to press for a lasting cessation of hostilities, 
protection of civilians, and unobstructed humanitarian access.
    And while immediate needs such as medical care and food 
must be a priority, the U.S. and other donors cannot forget 
about the medium-to long-term needs of the displaced, including 
mental health and psychosocial support as well as access to 
education for the hundreds of thousands of children caught up 
in the violence.
    Further complicating the situation is the presence of 
thousands of foreign women and children with perceived or real 
affiliations with armed groups such as ISIS. In the wake of the 
conflict with ISIS in Syria and Iraq, a large population of 
foreign nationals have been living in displacement camps across 
northeast Syria. 12,300 foreign nationals have been present in 
three camps. This includes 9,000 children from more than 40 
different nationalities. More than 8,000 of these children are 
under the age of 12, while more than 4,000 are under the age of 
five.
    Save the Children is operational in the Al Hol annex, which 
houses the foreign women and children. The conditions have been 
challenging. Even before recent events, critical gaps existed 
across all sectors, including health, education, and 
protection.
    But foreign children trapped in Syria are victims of the 
conflict and must be treated as such rather than looked at as 
terrorists. Many of them were brought or trafficked into Syria 
or were born there over the course of the conflict.
    Given the life-threatening dangers they and their families 
face, Save the Children calls on governments to repatriate them 
to their country of origin. We thank the U.S. for its policy of 
repatriating American citizens in these camps and for pressing 
other nations to do the same. To ensure child protection, this 
must take place as soon as possible while still feasible.
    We can't forget about the massive needs in the northwest. 
In 2019, conflict and displacement have raged across Idlib, 
where nearly 3 million people are in need of humanitarian 
assistance, half of which are children. Save the Children is 
calling on all parties to deescalate the conflict in the 
northwest and support a cease-fire.
    U.N. Security Council Resolution 2165, which ensures cross-
border humanitarian access into Syria from Turkey and Iraq, 
must be renewed. U.S. leadership is key to ensure that the 
violation of fundamental human rights and international laws 
designed to protect civilians does not become the new normal.
    Finally, we can't forget the millions of Syrian refugees. 
Refugee-response funding needs have doubled over the past five 
years. The U.S. must continue to allocate robust funding for 
the refugee response and press others to do the same.
    Efforts by some host governments to repatriate refugees 
back to unsafe areas in Syria is particularly concerning. The 
U.S. has been clear about its opposition to forced returns and 
must continue to stress that returns of refugees or asylum-
seekers should be voluntary, safe, and dignified.
    One hundred years ago, Save the Children's founder said 
every war is a war against children. Syria is no exception. 
Yet, before recent events, the world barely seemed to notice. 
The danger is that, once headlines about Turkey fade, the 
conflict in Syria will again fall off the radar screen, even as 
its impact on Syrian children continues. Sustained political 
engagement by American leaders and support for a humanitarian 
response will be needed then more than ever.
    Thank you.
    Mr. Lynch. Thank you, Ms. Romero.
    Mr. Glaser, you're now recognized for five minutes for an 
oral presentation of your testimony.

 STATEMENT OF JOHN GLASER, DIRECTOR OF FOREIGN POLICY STUDIES, 
                         CATO INSTITUTE

    Mr. Glaser. Mr. Chairman, Ranking Member Hice, and members 
of the subcommittee, thank you for the privilege of having me 
here to speak today.
    The United States became directly involved in Syria early 
in the civil war. Our focus then was on undermining the Assad 
regime by providing aid to various armed opposition groups. The 
primary security rationale for our increased involvement in 
Syria in recent years was to destroy ISIS. And, although 
remnants of the group remain, that objective has largely been 
met, and it makes good strategic sense to withdraw.
    I'll say at the outset that the manner in which the 
administration initiated this withdrawal was clumsy and 
injected unnecessary risk and instability. I'll address that 
more in a minute.
    The justifications for a continued U.S. military presence 
in Syria have expanded well beyond the initial reason for their 
deployment. It went from defeating ISIS to protecting the 
Kurds, pushing back against Russian and Iranian influence in 
the country, serving as a buffer to protect Israel from 
regional enemies, helping usher in a post-Assad Syria, and now, 
apparently, securing oil fields.
    This is a classic case of mission creep. It amounts to 
letting the United States slip further into a Middle East war 
without clear objectives, without serious scrutiny about what 
is actually achievable, and without a public debate that 
includes a vote in Congress authorizing the mission.
    There have been a number of contradictions in our Syria 
policy. We knew undermining the Assad regime and creating a 
power vacuum in a significant portion of the country might 
generate more instability and enliven a dangerous rebellion, 
and yet we continued to pursue this policy.
    We knew that there were substantial numbers of jihadist 
terrorists within the various rebel opposition groups, but we 
continued to aid them until recently. Turkey is a NATO ally who 
sees the Kurdish population along the Turkish/Syrian border as 
a serious security threat, and yet we've pursued a tactical 
alliance of convenience with the Kurds to battle ISIS. Suffice 
it to say that aiding and arming and allying with two 
adversarial entities is not only a contradiction of sorts but 
seems destined for an inevitable and bitter transition away 
from that.
    It was a mistake to have offered or even implied any 
promises to the Kurds that we weren't fully prepared to 
deliver. An autonomous Kurdish State in northern Syria was an 
implausible scenario, given the situation on the ground. And to 
the extent that we led anyone to believe that that was our 
objective, it was a mistake and, I think, put the Kurds in more 
danger.
    Now, with regard to the process of this withdrawal, the 
President ordered this change in policy completely outside the 
interagency process, and that makes for a messy implementation.
    The administration also failed to employ sufficient 
diplomatic muscle to help carry out a responsible withdrawal. 
We should have had a deliberate dialog with Turkey, for 
example, long before any announcement to withdraw. As 
distasteful as it may be, the U.S. probably should have worked 
with Damascus to facilitate a formal arrangement with the Kurds 
that would allow Syria to reassert its sovereignty over those 
territories and, thus, prevent a Kurdish incursion and attack 
on the Kurds. This could've helped satiate the Turkish concerns 
of the PKK safe haven over the border while also deterring 
further action.
    We could've engaged in this kind of arrangement months ago. 
In fact, the reports suggest that the Trump administration 
actually discouraged those talks. Yet just such an arrangement 
is what's falling into place between the Assad regime and the 
Kurdish forces. I should mention that the former commander of 
U.S. Central Command, General Votel, has also signed on to that 
approach.
    The United States also probably should've sought some 
cooperation with Russia. Both the U.S. and Russia want 
stability; they want to prevent the reemergence of ISIS. Both 
have reasons to oppose Turkish incursions into Syria. Moscow 
has leverage over Damascus; we have leverage over Ankara. These 
are opportunities for diplomacy to take place, but it didn't. 
The bottom line is that active and skillful diplomacy was the 
best tool for serving U.S. interests in Syria and allowing a 
smooth and responsible withdrawal.
    Going forward, the United States should pressure Turkey to 
refrain from further aggressive tactics in Syria. Washington 
should lend quiet support to negotiations, particularly the 
Astana Process, but not seek to be an active participant, I 
think.
    The economic sanctions that Congress is prepared to impose 
on Turkey may send an appropriate signal but are largely 
symbolic. Sanctions alone have a very poor track record of 
altering the behavior of a target state, and no one should 
expect them to have much tangible impact in this case.
    Should the United States determine that a future military 
deployment to Syria is necessary for U.S. security and 
interests, it's incumbent upon this body to openly debate it 
and ultimately to vote on authorizing the use of force. A 
unilateral decision by the executive branch to keep either 
residual forces there or to redeploy at a later date is subject 
to Congress's constitutional prerogatives and, more recently, 
the War Powers Act.
    I look forward to answering your questions.
    Mr. Lynch. Thank you, Mr. Glaser.
    And just to put a finer point on that, I do know from 
yesterday's testimony in the Senate that James Jeffrey, who is 
the Special Representative for Syria Engagement and the Special 
Envoy to the Global Coalition to Defeat ISIS, was not consulted 
in this decision.
    So, at this point, I would like to welcome my neighbor and 
colleague, Ms. Pressley of Massachusetts. We welcome her to the 
committee. I would also like to welcome the gentleman from 
Kentucky, Mr. Massie.
    I'd like to make a motion to allow both Ms. Pressley and 
Mr. Massie to participate and to engage in questioning when 
their time arrives.
    Without objection, so ordered.
    I now yield myself five minutes for questioning.
    So, Ms. Romero, a number of us on this committee have been 
to all of the Syrian refugee camps, going back to, you know, 
the early days of conflict between, you know, Bashar al-Assad's 
regime and some of the rebel groups in Aleppo and elsewhere in 
Syria. So we traveled to Kilis up in the north, north of 
Aleppo, to Adana, out by Idlib. We went to Beirut, where many 
of the refugees fled, and also to Zaatari, which is the camp in 
Jordan, about 85,000 refugees.
    What do you know about--now, that was all before the 
Turkish incursion that we're now witnessing. Is there any data 
or any information that you have with respect to the current 
situation, what may have been exacerbated by the withdrawal of 
U.S. troops and then the subsequent invasion and incursion by 
Turkish troops and that violence? What has that done to the 
flow of refugees to these camps and elsewhere?
    Ms. Romero. Yes, I mean, we don't have hard, hard numbers 
yet, and, frankly, the situation changes every day. But 
basically what we have seen is movement from the populations 
that were in the area where there has been violence toward Al-
Hasakah and further south.
    They have been setting up in kind of informal shelters. 
They've been taking over schools, different buildings. You have 
very overcrowded conditions, difficulties delivering services 
there and reaching people there.
    Most of the humanitarian agencies have had to withdraw 
their international staff. Syrian local staff has remained 
active and has been delivering services to the moving 
populations as much as possible. They're operating in a very 
insecure environment, obviously. Some of them, actually, 
themselves, have become refugees and have decided to leave, for 
fear of the changes that may happen and fears of conscription 
and fears of violence because of what's going on.
    So lots of population movement. We've seen in the news 
thousands of people moving into Iraq. We think that the camp 
that was set up there will be at maximum capacity by day after 
tomorrow if the flows continue at this level. So lots of 
strains on the services and lots of movement.
    Mr. Lynch. Thank you.
    We did have a chance last week to visit with King Abdullah. 
The Jordanian schools on the border there near Zaatari have 
gone to two shifts. So the Jordanian kids go to school in the 
morning to early afternoon, and then the Syrian kids come in 
and go to school from late afternoon onward.
    So it's amazing that the Jordanians--and, actually, in 
Beirut, the similar situation, where the local kids are going 
to school in the morning and then the refugee kids in the same 
schools. So, very, very generous and gracious by those host 
countries, but still enormous pressure.
    Ms. Torres, we've had an opportunity over the last month, 
myself and other members of this committee, to visit Algeria, 
Saudi Arabia, Jordan, and Afghanistan, asking those governments 
to repatriate their nationals who went to Syria to fight on the 
side of ISIS.
    I would say that the results have been mixed, the responses 
have been mixed. There's not been this outpouring of 
willingness to repatriate those fighters because of the 
radicalized state they are in.
    How do we tackle this?
    Even countries that have resources, for political reasons 
and for stability reasons, are very nervous about bringing 
those individuals back.
    Ms. Torres. Thank you, Chairman.
    I think the first thing we have to recognize is that, if we 
do not take these people back to their home countries, we're 
only redoing the cycle. We are creating a new cycle of 
terrorism if we don't take these citizens back, if we don't 
provide them with justice in their own countries.
    What we have done, what I understand many countries have 
done, some countries--Kazakhstan is an example, Russia is an 
example--have taken their citizens back. They have invested in 
rehabilitation and reintegration programs.
    I understand, as far as our center is concerned, we've met 
with other governments to talk to them about perhaps changing 
their legal systems. I know a lot of European countries, for 
example, have had a difficult time because their sentencing and 
their charges allow for maybe two to five years' imprisonment, 
and they're scared and concerned about what happens when 
terrorists are then freed.
    There are ways to go about that. You can change your laws. 
You can change your legislation. You can also develop parole-
like programs that would allow for a smoother transition for 
terrorists to rehabilitate and eventually reintegrate.
    Mr. Lynch. Very good.
    My time has expired. I'd like to yield at this time to the 
gentleman from Georgia, Mr. Hice, for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Glaser, you mentioned the fall of ISIS, so to speak, in 
your testimony. Since that time, under what authority has the 
U.S. utilized to stay in the region?
    Mr. Glaser. None. There is no legal authority for a U.S. 
military presence on the ground in Syria.
    What's often cited is the 2001 AUMF, which, through three 
Presidencies now, has been expanded and stretched to include 
groups that--you know, the language in that legislation 
authorizes the use of force against al-Qaida, the perpetrator 
of the attack, and anyone who aided or harbored then. Later on, 
the word ``associated forces'' came up, but that's actually not 
in the text.
    We've targeted, under this bill, groups that had nothing to 
do with 9/11, groups that are enemies of al-Qaida, groups that 
didn't even exist at the time of 9/11. It's gone from Iraq, 
Syria, Afghanistan, Pakistan, Niger, Somalia, Libya. So this is 
a very real problem.
    Mr. Hice. So would it be your opinion, then, that the 
withdrawal of troops that the President just ordered was really 
necessary under the current legal framework?
    Mr. Glaser. Yes, although there is a problem, in that he 
quadrupled the number of troops on the ground in his first two 
years in office. So I don't think he's paying too much close 
attention to the AUMF. But it is certainly true that Congress 
has not done its job in authorizing----
    Mr. Hice. I don't think anyone up here would question that, 
but it is a complicated issue.
    Let me ask you this. Whether we're dealing with 
humanitarian need or peacekeeping efforts, whatever, on a long-
term-scale-going basis, what kind of legal framework would be 
necessary?
    Mr. Glaser. Well, if U.S. troops are needed, then Congress 
needs to authorize that. U.S. troops should be used in order to 
defend imminent threats to this territory and its people. 
Peacekeeping missions through the U.N. might be a different 
situation.
    In terms of other legal authority, you know, I think we 
need to pay close attention to the strategic justifications for 
why we're there. There's a substantial academic literature--
although we have done a good job in fighting ISIS and 
coordinating things on the ground-- there is a substantial 
academic literature in political science demonstrating that, 
when external powers involve themselves in a civil war on 
multiple parties, it has the effect of exacerbating and 
prolonging and intensifying that conflict. That's basically 
what we've done from the beginning.
    Mr. Hice. Okay, let me throw this out to you, I hear people 
ask me this when I'm in the district, this type of question, 
and I think it's appropriate here. We've got some 40,000 
veterans here in America homeless. Some numbers go up to 6 
million or so children, family members who are hungry, and yet 
there's this constant helping of people in other countries that 
need help--I'm not trying to belittle that at all or diminish 
the need, but the fact of the need that we have here, how do 
you respond to that?
    Mr. Glaser. So I certainly think it's important for this 
government to have as a priority its own people, and I think 
what's more incumbent upon us is to not make things worse 
abroad, rather sort of do no harm, rather than take it upon 
ourselves to view every problem as an American one to be 
solved.
    The other problem with this is that, when we do find it 
worthwhile to go abroad, to fix problems and help people, we 
often have the bad habit of seeing things only through a 
military prism. It's almost like our military is our only tool, 
when, in fact, diplomacy and aid have a lot going for them and 
can actually do things at cheaper cost and with greater 
humanitarian benefits.
    Mr. Hice. Okay. One other question, and my time's going to 
run out. Going back to the previous administration with a 
chemical weapons red line and the inaction that came as a 
result of that, what kind of impact do you think that had on, 
say, where we are right now?
    Mr. Glaser. Actually, I think the impact has been greatly 
exaggerated. There's also a substantial literature in the 
academics and political science realm on the issue of 
credibility. It's taken to be a justification for all kinds of 
U.S. military interventions. But states tend to pay close 
attention to the actual circumstances at hand and not 
extrapolate with other locations and situations. So the fact 
that we--it would have been wrong, frankly, for the United 
States to bomb Syria as punishment for chemical weapons 
attacks. Chemical weapons has a special place in our mind, but 
the vast majority of casualties in Syria have come from bombs 
and bullets. So it's patently irrational to put these as 
special category and pretend like they're especially deadly 
weapons, and then justify a U.S. military action, which by the 
way, at the time did not have congressional approval, and would 
have been illegal under international law, since it didn't have 
U.N. Security Council approval.
    Mr. Hice. I yield back.
    Mr. Cooper.
    [Presiding.] The gentleman's time has expired.
    I recognize myself for five minutes. First, I would like to 
ask unanimous consent that we enter into the record the current 
issue of The Economist Magazine. The cover reads, ``Who can 
trust Trump's America? The consequences of betraying the 
Kurds.'' The article inside the magazine goes into greater 
detail, and the subtitle there is ``Removing American troops 
from Syria triggered an invasion, betrayed an ally, and trashed 
the national interest.'' There's a sub article beneath that 
that focuses particularly on the history of the Kurds, and the 
subtitle there is, ``America's abandonment caps a century of 
global duplicity.''
    That's really the subject of this hearing, and this is one 
of the most influential magazines in the world. It's a British 
magazine. This is apparently what the English-speaking world 
thinks of America's recent policy reversal.
    The second focus would be Mr. Palmer. I have the privilege 
of representing Nashville, Tennessee, which is very near Fort 
Campbell, and I am a huge fan of its Special Forces. Not to 
take anything away from the 82d Airborne, but I admire you and 
your career--West Point, two Bronze Stars, a MacArthur Award--
and I'm proud that you're continuing your patriotic service by 
being willing to testify today.
    Captain Palmer. Thank you.
    Mr. Cooper. Your firsthand view of what it's like to fight 
with Kurds by your side, and when you pointed out in your 
testimony how relatively rare it is for allies in the Middle 
East to stand and fight with you, should be testimony that's 
heard by everyone on this committee. Actually this is one of 
the few bipartisan issues in Congress because the vote was 
overwhelming: 129 Republicans being willing to vote that the 
recent policy reversal was a huge mistake. That was a 
breakthrough. I hope that more and more Republicans will listen 
to your testimony and understand what a vital ally the Kurds 
have been. This policy reversal is a deeply felt betrayal. No 
one knows today what it's going to be like, and I hope [in] the 
recent announcement that the cease-fire will be permanent. 
Wouldn't that be great? But otherwise the Kurds face one of the 
largest armies in the world, the Turkish Army, who have been 
known to show no mercy. And as the gentleman from Georgia 
repeated in his opening remarks, is it just Turkish propaganda 
when they link the YPG with the PKK? You know, these are deep 
issues, but our allies should not be abused.
    It goes without saying that most of our colleagues know 
that the Turks recently have bought the S400 Russian air 
defense system. That is not a NATO-friendly move. That is not a 
U.S.-friendly move. I'm worried that the fundamental problem 
here is, really, we've given into Russian foreign policy 
interests in the region and perhaps even have built a land 
bridge from Iran to the Golan Heights. So that to me is what is 
really at stake here. And to abandon our best friends, our 
fighters, was a tragedy.
    So, Mr. Palmer, I don't know if you care to elaborate on 
your testimony since you're the only person here who's had 
firsthand U.S. military experience on what it's like to fight 
with the Kurds by your side.
    Captain Palmer. Thank you, Congressman. Yes, my time in 
Syria, the Kurds were a very reliable and dedicated partner for 
us. Literally every combat operation we were on, they were by 
our side with us, fighting alongside us, and that sort of 
commitment to my team and to our mission as a whole was 
something that we really valued and enabled our success.
    Mr. Cooper. Did they look like terrorists to you?
    Captain Palmer. Congressman, the unit I worked with, I saw 
a SDF unit that was dedicated and had a lot of resolve and 
commitment to fighting the Islamic State.
    Mr. Cooper. Would we have been as successful in taking on 
ISIS or DAESH without the help of the Kurds?
    Captain Palmer. Congressman, I don't know about specific 
other policy proposals. I can speak specifically to my 
experience over there, and, yes, the Kurds and the SDF, 
absolutely were instrumental in our success against the Islamic 
State.
    Mr. Cooper. And didn't they suffer, like, 11,000 deaths and 
we had, what, six?
    Captain Palmer. Congressman, we greatly provided the 
security they provided to our team, and that added support 
really made, you know, made my unit safer over there as well.
    Mr. Cooper. But that's a disproportionate sacrifice on 
their part when they suffer 11,000 casualties, and we take 6.
    I see that my time has expired.
    The gentleman from Arizona, Mr. Gosar, is recognized.
    Mr. Gosar. Thank you, Mr. Chairman.
    Mr. Palmer, also, thank you for your service. We certainly 
appreciate that. Would you agree with me, the following recipe? 
Good process gets you good policy, gets you good politics. 
Would you agree with that?
    Captain Palmer. Congressman, I'm not qualified to speak on 
policy.
    Mr. Gosar. Mr. Glaser, would you care to weigh in on that? 
Good process gives you good policy, gives you good politics?
    Mr. Glaser. Seems reasonable to me.
    Mr. Gosar. That's what I think. So Mr. Glaser, back to you 
again, I just want to reiterate--go through this in my mind and 
make sure. So, back in 2013, when Obama decided to strike 
within Syria, 2013, Congress was actually put on notice, were 
they not?
    Mr. Glaser. They were.
    Mr. Gosar. So, at the time, Republican leadership and this 
year, under Democratic leadership, an AUMF could have been 
brought up that quick.
    Mr. Glaser. Yes.
    Mr. Gosar. So let me get this straight. So we keep hearing 
everybody talking about the constitutional role of Congress. 
Would you consider that leadership from both parties let the 
Kurds down?
    Mr. Glaser. Yes.
    Mr. Gosar. Interesting. Interesting. Seeing that they're 
the ones that dictate the process.
    Ms. Torres, do you believe that a long-term, large-scale 
effort by the U.S. military is required in Syria?
    Ms. Torres. I think that we need to stay vigilant about 
what's happening in Syria, what's happening in Iraq, with 
regards to the resurgence of ISIS. I think we need to continue 
to assess and continue to remain vigilant and continue to 
monitor the situation. I think that the withdrawal of troops 
out of Syria at this time was a bad idea, especially the way 
that it was done, without any notice, without any preparation, 
and it's allowed for our Kurdish allies to take the brunt of 
the conflict. It's also left us in a position where we're no 
longer in a good position to assess what's happening with ISIS. 
We have ISIS militants and those that are in these camps that 
are escaping----
    Mr. Gosar. Well, let me--you know, I've got limited time. 
So how many U.S. servicemen were actually removed from Syria?
    Ms. Torres. I understand about a thousand.
    Mr. Gosar. Let's say 28 from that zone, 28, and they were 
moved back into Syria, further back. That's 28. That's the 
number we're talking about. Would you agree with me, Mr. 
Glaser, that's the number?
    Mr. Glaser. Well, there's a number of things going on. So 
the initial order from Trump to relocate about the number that 
was reported is 50 to a 100--I know the President now says 28--
was to relocate within somewhere in Syria. Then things 
unfolded, and it seems to be now the policy to withdraw all of 
them, with the exception of maybe 200.
    Mr. Gosar. Well, it seems to be, but what we know of is 
that there's 28. Now, let me go back through this. I've got 
some limited time. So, in World War II, we had a number of 
allies, did we not, Mr. Glaser?
    Mr. Glaser. Yes.
    Mr. Gosar. Was one of them the USSR, the Soviet Union?
    Mr. Glaser. Yes.
    Mr. Gosar. And what did we do after we won that war? Did we 
instantly try to help the Soviet Union?
    Mr. Glaser. Excuse me. Did we try to help them?
    Mr. Gosar. Yep.
    Mr. Glaser. No. Pretty quickly after the war ended, we 
engaged in mutual suspicion and----
    Mr. Gosar. The cold war happened, did it not?
    Mr. Glaser. Yes.
    Mr. Gosar. Yes. Can you tell me a little bit about after 
World War I, Europeans' idea of breaking up the Middle East? 
Was there at one time a proposal for different 'stans? 
Kurdistan was one of them?
    Mr. Glaser. My understanding of the history is that that 
was in discussion at the time but didn't work out that way.
    Mr. Gosar. Let me ask you a question, then again. How long 
have we been fighting this war in this piece of--on this piece 
of sand?
    Mr. Glaser. The United States?
    Mr. Gosar. No, no, no. The war. The war of all these people 
in this area. How long have we been fighting on this piece of 
sand?
    Mr. Glaser. Sir, which war are you referring to?
    Mr. Gosar. All of them. We've been fighting from before 
Christ.
    Mr. Glaser. Right.
    Mr. Gosar. Has there been any resolve?
    Mr. Glaser. Well, there are a number of different conflicts 
in the region, and you have to speak about them specifically to 
say anything meaningful about them, I think.
    Mr. Gosar. So let me ask you a question. We've hailed a 
barnstorm at the President, but we got a stalemate right now.
    Mr. Glaser. Yes.
    Mr. Gosar. Does the analogy ``doing the same thing over and 
over again expecting a different result, insanity''----
    Mr. Glaser. I think that certainly applies to our policy.
    Mr. Gosar. So wouldn't it be nice that we tried something a 
little bit different?
    Mr. Glaser. I should hope so.
    Mr. Gosar. Wouldn't it--I would say maybe it's a little 
awkward the way this has turned out, but what if it actually 
turns out to be something that can actually work out?
    Mr. Glaser. Well, that would be to everyone's benefit, but 
I think the reversal of the process, where Trump orders a 
withdrawal and then we scramble to fix it with diplomacy, 
should have been done the right way around the first time.
    Mr. Gosar. Yes. I yield back.
    Mr. Cooper. The gentleman's time has expired. The gentleman 
from Vermont, Mr. Welch, is recognized.
    Mr. Welch. Thank you, and I want to thank the witnesses. I 
particularly want to thank Ms. Ahmed. Your country has suffered 
so much for so long, and our heart goes out to you. I want to 
raise the question about how this happened.
    It really goes to what you're saying, Mr. Glaser. You know, 
there's a number of people on the other side of the aisle who 
have a view, and I share it, that we should not be in as many 
of these long-term conflicts as possible. But I wanted to ask 
some questions about what the consequences are of the way in 
which the President of the United States acted with literally 
no notice to our Kurdish allies--and thank you, Mr. Palmer--
with no notice to the State Department, with no notice to the 
Department of Defense, with no notice to anybody. We are seeing 
the creation of an unnecessary and total avoidable humanitarian 
disaster. That's the concern I have at this moment. So some of 
the questions I have are about who is in that band that is 
affected by the Turkish incursion. I'll ask you, Ms.Torres. You 
might have the best statistics, but other people can't. How 
many people live in that area that is subject to the Turkish 
incursion?
    Ms. Torres. I mean, it's difficult to estimate. I've seen 
numbers in the millions, but I'm not sure if my colleagues 
might have better numbers.
    Mr. Welch. Does anybody have--how do we not know, before 
the President went in there, how many people would be in the 
line of fire? Mr. Palmer, do you have any idea what the 
population is in that area?
    Captain Palmer. No, Congressman.
    Mr. Welch. Ms. Ahmed?
    Ms. Ahmed. In the border area, approximately 3 million 
people are living. Not only this recent area that Turkey got 
control of, but also in rest of Euphrates and also my hometown, 
Afrin, is under Turkish occupation.
    Mr. Welch. Let me just go on. What I understood, I think 
Ms. Torres, you said, is 160,000 or so people have been 
displaced?
    Ms. Torres. That's correct.
    Mr. Welch. And this means they're not in their home, right? 
They went to bed the night before the President made the phone 
call, and the day after that, they didn't have a home, right? 
Where did they go?
    Ms. Torres. So I think some have gone to camps. Some have 
gone to IDP camps. Some have been injured along the way.
    Mr. Welch. What camps? We don't have the camps there to 
accommodate. They're all overfilled already. Mr. Palmer, you 
know, one of the extraordinary things about our military is 
their capacity to do logistics, to plan, to execute a very 
complicated mission. Would it be like logistics 101 before you 
take an action that's going to displace 160,000 people, that 
you have some idea where they're going to go?
    Captain Palmer. Congressman, I don't think I'm qualified, 
necessarily, to speak to military strategy as a whole. My 
mission over there was more focused on counter-Islamic State 
operations.
    Mr. Welch. You know, I appreciate your discipline, but 
it's, like, obvious. If you're going to do something where 
160,000 people are going to have to leave their homes, and you 
feel some responsibility because it's the action you're 
allowing, or you're taking, you're going to make some 
arrangements.
    I will ask you this, Mr. Palmer. You spoke about just the 
fighting force and the extraordinary band of brothers situation 
you had with Kurdish allies, right? But there were also Syrian 
fighters who were standing up to that monster Assad who live in 
that area as well, correct?
    Captain Palmer. Congressman, most of my operations were 
specifically with the SDF. I know there were other groups out 
there, but mine was specifically the SDF----
    Mr. Welch. But in Raqqa, there were many Arab fighters who 
were standing up against Assad, and that was a brutal fight 
there, correct? So, I mean, I'll just ask Mr. Glaser. You're 
right about the plan should come first, not just the phone 
call, you know: Hey, my friend, Mr. Erdogan, you know, do what 
you wish.
    How in the--what is the peril to the Arab fighters living 
in many of these cities now that the Russians and the Assad 
regime has free hand to roam around there? Do you have any 
apprehension that reprisals will occur?
    Mr. Glaser. Yes. And although I am very, very critical of 
the way this was done, it's also true that we should be 
realistic that, I mean, any transition in policy----
    Mr. Welch. You know, don't--just don't say that. There will 
be consequences, but when it is on us, because we make a 
voluntary decision about how we're going to execute, and the 
consequences are that innocent lives are lost, that is not 
subject to being washed away because it's quote, realistic. I 
mean, I'm with--I want to say to my Republican colleagues: 
There's two issues here, and I know my time's up. One is, 
what's our long-term policy there, and there is fault that can 
be ascribed all around. But to take an action where, in one 
fell swoop, with no consultation, no forewarning, we betray 
allies who have been with us, and we leave innocent people at 
the mercy of people who are going to get them, I don't get 
that. That's not what I call American. I yield back.
    Mr. Cooper. The gentleman's time has expired.
    The gentleman from Texas is recognized for five minutes.
    Mr. Cloud. Thank you, Chairman.
    Thank you, Mr. Palmer, for your service. Thank you, Ms. 
Torres, Ms. Romero, Ms. Ahmed for being here and sharing your 
story with us.
    Mr. Glaser, I was wanting to see. Could you tell us in how 
many nations our military is deployed?
    Mr. Glaser. We have some form, usually Special Forces, of 
U.S. military deployed to more than 150 countries. It's 
effectively the whole world.
    Mr. Cloud. More than 150. Okay.
    Mr. Glaser. Those are small. You know, we have bases in 
about 70 or 80 countries, but those are larger contingents.
    Mr. Cloud. Okay. And could you touch on some of the 
partners that play in the region, just a brief general history?
    Mr. Glaser. Of the partners in the region?
    Mr. Cloud. The players in this conflict in the region.
    Mr. Glaser. Yes. Well, I think the important thing to 
understand about the specific issue is that Turkey has long had 
a tense relationship with the Kurdish population in the 
southeast, and there's long been Kurds over the border. Back in 
1998, Syria and Turkey came to an agreement, the Adana 
agreement, where, you know, they agreed to not allow any cross-
border Kurdish cooperation and direction of operations, and it 
worked effectively. My understanding is that Moscow is using 
that agreement as the basis for its negotiations with Turkey.
    Mr. Cloud. Okay. And is it true that we've been in this 
conflict, in a sense, arming what would be both sides of this 
conflict over the----
    Mr. Glaser. Well, yes. I mean, we're arming many sides in 
the conflict, unfortunately, especially early on in the 
process, before the kinks had been worked out. Unfortunately, 
we cooperated with our Arab Gulf allies in delivering aid, 
sometimes lethal aid, to rebel groups, and that got into the 
hands of some people that we should want to keep arms out of.
    Mr. Cloud. You touched on this before, but could you 
briefly again explain the concept of mission creep and how that 
applies in this region in the sense of, what was our original 
authorization in being there, why were our troops deployed, did 
they accomplish their mission, and what authorizes them to stay 
there?
    Mr. Glaser. Yes. In general, it's very easy to insert the 
U.S. military into a situation, and it's much, much harder to 
get them out because when conditions change, new objectives 
arise, and you know, as the Congressman was saying, there are 
risks inherent in any withdrawal and any change in policy. So 
Syria is one of the messiest conflicts on the planet, and 
getting out is very difficult unless we're very----
    Mr. Cloud. And what's the authorization that had us there?
    Mr. Glaser. As I said before, there is no legal sanction 
for U.S. military troops in Syria.
    Mr. Cloud. Okay. You mentioned concerns about the 
abruptness of total withdrawal.
    Mr. Glaser. Yes.
    Mr. Cloud. Would you say that this was the right thing, the 
what was right but maybe the how was the issue?
    Mr. Glaser. Right. I think it's important--I think it's in 
U.S. interests to disentangle itself from most of the 
conflicts, if not all, in the Middle East. We should be more 
clear about what interests are at stake for the United States 
and not go willy nilly into these conflicts. Sorry. What was 
the rest of your question?
    Mr. Cloud. Our authorization for being there.
    Mr. Glaser. So we need to authorize the use of force. It's 
something that Congress has been disincentivized to do, and the 
executive branch historically is willing to avail itself of 
that lack of constraint.
    Mr. Cloud. I only have a minute if you can--I have a couple 
more questions to get through. A lot of this testimony today 
was written, of course, before the news of the day. This is a 
very developing story. It's a couple weeks old. I was happy to 
hear a lot of discussion among the witnesses about the 
importance of diplomacy. And today it seems like news is 
breaking in which diplomatic efforts since the withdrawal are 
having perhaps some effect.
    Just one month ago today, the President was at the U.N. 
talking about how, in 80 percent of the countries of the world, 
people of faith are persecuted. And it is--you know, when you 
sit in our position, your heart goes out because you wish you 
could help everybody in the world. Yet we know we have limited 
resources. We also have a constitutional obligation. Could you 
explain, when it comes to military activity, how the 
Constitution defines us to prioritize that process?
    Mr. Glaser. Well, the Constitution gives Congress the 
authority to determine the Nation's involvement in hostilities 
abroad, and the executive, you know, short of dealing with an 
imminent threat that he has to preempt, the President directs 
those and tends to decide when they end, which is unfortunate. 
But, yes, there are a lot of things going on in the world. I 
have a pretty narrow conception of what the U.S. military 
should be used for. I think it actually does them a disservice 
to deploy them in situations that don't rise to the level of a 
serious threat to this Nation's security.
    Mr. Cooper. The gentleman's time has expired.
    The gentle lady from Massachusetts is recognized.
    Ms. Pressley. Thank you, Mr. Chairman, for holding this 
critically important hearing today and for waving me on so that 
I could participate. In tumultuous times like these, the 
critical role of congressional oversight cannot be overstated. 
Once again, this administration's blatant disregard for the 
humanity and dignity of the world's most vulnerable is on full 
display. Over the last several days, we have witnessed the 
bloodshed, displacement, and overall humanitarian crisis that 
can result from the reckless and self-serving decisions by this 
administration. We have heard about the military and national 
security implications of the administration's removal of U.S. 
Forces from Syria. However, it's equally important to center 
the lived experiences and agency of our Kurdish allies, whose 
value cannot and should not be measured solely by their 
contributions to U.S. interests.
    Ms. Torres, based on your national security expertise, how 
would a diplomatic approach on the front end, paired with a 
strategic troop withdrawal, have avoided this violence in the 
first place?
    Ms. Torres. Thank you, Representative Pressley.
    I think, first off, I'm going to take a step back. As a 
former diplomat, I have participated in the policy process 
under both administrations. I participated and been on the 
other side of our administration's leaders, having discussions 
and debates on foreign policy and on discussions on what 
happens next, assessments of intelligence, assessments of 
what's happening on the ground, talking to local stakeholders. 
I think that, right now, what is happening is a lack of a 
foreign policy process, a lack of a national security process. 
So, with that in mind, I think that this entire decision has 
been marred with a lack of an understanding of what's happening 
on the ground. So it's difficult for me to say what should have 
happened, but what I can say is that there wasn't a policy 
process around what should have happened.
    Ms. Pressley. Very good. Ms. Romero, your organization, 
Save the Children, is on the front lines of helping those who 
are now displaced due to this humanitarian crisis. How will the 
increased instability in northeast Syria affect the ability of 
organizations like Save the Children and others to operate in 
the northeast?
    Ms. Romero. A lot depends on how--sorry. A lot depends on 
how things develop. But right now, we're facing the possibility 
of the supply lines, the roads that we use to get supplies in 
to northeast Syria, to reach populations, will be blocked or 
will be so insecure that we will not be able to reach certain 
populations. We know that our national staff is very concerned. 
We face the possibility that they will themselves become 
refugees. Some of them already have, or IDPs, rather, and that 
we will be faced with a smaller work force. We face the 
possibility of existing camps where people are able to arrive 
becoming overcrowded, the wash or the sanitation services, the 
water services being inadequate to reach the population. We 
face the prospect of not knowing where people are and not 
knowing how to reach them, and even if we do know how to reach 
them, not being able to cross the violence in order to reach 
them. So it makes an already volatile and difficult operational 
environment even more volatile, more uncertain, and it makes 
our mission to reach the most vulnerable children that much 
more challenging.
    Ms. Pressley. Thank you. I want to focus on another 
nonmilitary consequence of this abrupt withdrawal. A key 
component of the Defeat ISIS campaign was to help provide local 
communities with stabilization assistance to enable displaced 
persons to safely and voluntarily return to their homes. 
According to the State Department, stabilization can include, 
quote, efforts to establish civil security, access to dispute 
resolution, deliver targeted basic services, and establish a 
foundation for the return of displaced people. Ms. Torres, 
would you agree with that characterization?
    Ms. Torres. Yes, I would agree.
    Ms. Pressley. Ms. Ahmed, can you briefly discuss how the 
SDC supports U.S.-led stabilization efforts in northeast Syria?
    Ms. Ahmed. By supporting the local administrations, and to 
some extent, we were assisted in that aspect, to support local 
administrations.
    There were promises that the stability and security would 
be further provided. A return and come back for ISIS will not 
be allowed. That included rehabilitating or educating all 
society. And we had some certain programs to deradicalize ISIS 
families.
    But with Turkish Government's attack, all these were on 
hold, all were destroyed, these programs. Now ISIS is 
reemerging. The security of the region has collapsed. In the 
so-called safe zones, massacres are ongoing. And the Turkish 
threats, again slaughtering, still continue. With what--under 
what international law Turkish Government has been using F-16s 
to attack us, through our partners that have been fighting 
against ISIS. American rebels are being used against us with 
what authority crossing the border of another country and 
killing attacks against us when we are no threat.
    Ms. Pressley. Thank you.
    Mr. Cooper. The gentlelady's time has expired.
    Ms. Pressley. Sorry, we're over time. Thank you.
    Mr. Cooper. The gentleman from Louisiana, Mr. Higgins, is 
recognized.
    Mr. Higgins. Thank you, Mr. Chairman. Mr. Glaser, is it a 
factual statement that America has large numbers of troops in 
the region on the ground out there?
    Mr. Glaser. Yes, sir.
    Mr. Higgins. So, when we discuss what's referred to as a 
withdrawal of troops--and let me say that I clearly understand 
that America is conflicted on this. We seek a righteous 
position on this. But when we discuss what's referred to as a 
withdrawal of troops--and we still have massive numbers of 
troops in the region--would it be fair to state that this is a 
movement of troops within the region?
    Mr. Glaser. Yes----
    Mr. Higgins. Is there a chance--thank you for that 
clarification. Is there a chance that a newly established 
buffer zone would stabilize?
    Mr. Glaser. There is a chance. We have to see.
    Mr. Higgins. Okay. I'd like to focus, if we could, I'd like 
to ask your opinion, good sir, regarding where we are, 
considering the totality of circumstance as a Nation with this 
Turkish/Syria situation. On the one hand, you know, the 
American citizenry that we serve desires us to disengage from 
unnecessary warfare overseas. On the other hand, we intend to 
stand by our allies. This is reflective of the conflict that we 
genuinely face as a body and as a people. So let's talk about 
our allies. Is Turkey, in your opinion, conducting itself as 
according to NATO standards?
    Mr. Glaser. No.
    Mr. Higgins. Do you think Turkey should be held accountable 
for any reported violations of Geneva Conventions during this 
conflict?
    Mr. Glaser. Yes.
    Mr. Higgins. Do you think Turkey should be subject to 
removal from NATO? Should its status be considered as 
potentially rescinded from NATO?
    Mr. Glaser. Potentially. It should be a tool.
    Mr. Higgins. Do you think that that could be a tool that 
could be used to leverage Turkey?
    Mr. Glaser. Yes.
    Mr. Higgins. Given the very precarious nature of the 
military engagement in this region of the world, and the 
conflict that we face as a Nation, regarding our own role, our 
own righteous role within this ongoing generations-long 
conflict, in your opinion, sir--let us step past how we got to 
where we are--and would you share with us, in my remaining two 
minutes here, how you would envision a righteous solution to 
where we are? Let's forego how we got here. We could debate 
that. What's the answer? How do we move forward? Advise the 
American people. America's watching.
    Mr. Glaser. So I think, over the medium to long term, it 
makes sense to reevaluate our entire approach to the region. 
That includes which countries we're closely allied with and 
cooperate with and which ones we're set against. I think we 
should have an arm's length approach to the region, and we 
should have an offshore balancing approach in terms of our 
military posture. We have rapid response capabilities to deploy 
in crisis situations from offshore, and we should take 
advantage of that by and large.
    You know, I think the Saudi relationship needs to be 
reevaluated. I think they act against U.S. interests, pretty 
substantially and for various reasons, we've been unwilling to 
engage in that reevaluation.
    Mr. Higgins. Comment if you will on Turkey's emerging 
increased relationships, including military relationship, 
including the purchase of military hardware from Russia and 
their, as of yesterday, newly negotiated posture with Russia. 
Comment on that, please, in my remaining 30 seconds, sir.
    Mr. Glaser. Yes. I think that's another reason we should 
reevaluate the way we do alliances, particularly in NATO. I 
think the habit has been to just add more NATO allies with the 
frivolity with which most people add friends on Facebook, 
without considering closely their regional interests, the 
extent to which we'll have to adopt those regional interests, 
as their ally.
    Mr. Higgins. Thank you for that clarification. In my 
remaining 10 seconds, yes or no, would it be fair to consider 
that Turkey is really the responsible actor here?
    Mr. Glaser. They are one responsible actor.
    Mr. Higgins. Thank you, sir.
    I yield, Mr. Chairman. Thank you.
    Mr. DeSaulnier.
    [Presiding.] Thank you, and I'd like to recognize myself 
for the next five minutes and thank all of the panelists for 
being here. I appreciate your efforts both here today and in 
your professional--and your experience.
    Mr. Palmer, thank you for your service. It's appreciated.
    Ms. Ahmed, thank you for being here and your service in a 
very difficult circumstance, to both of you.
    So, Ms. Romero, I want to focus most of my questions on the 
humanitarian needs as they were before this incident and after. 
Most of us have had the good fortune--well, for the wrong 
reason--to be able to go to the Middle East and go to refugee 
camps and talk to Syrian refugees and hear about their real-
life dilemmas of walking, leaving everything they knew in a war 
situation. I don't think most Americans--at least I wasn't 
until I went and had that experience--realized, and most 
Americans don't realize the history and the delicacy of 
relationships in the Middle East since at least World War I. 
And the whole question of whether the Kurds should have had a 
state or not. So, in all of this delicate foreign policy, the 
human aspects of this, I think, are getting missed in large 
part, and the demands you had. So tell me what the humanitarian 
needs and demands were before the incursion, and talk a little 
bit about what's happened since.
    Ms. Romero. In a sense, the demands are the same because 
the fundamental ask from the humanitarian community is that 
there be a cessation, a lasting cessation of hostilities, that 
civilian protection be upheld, and that humanitarians be given, 
you know, unfettered access to people in need. I think those 
are the three sort of big policy asks from the humanitarian 
community, you know, yesterday, today, and tomorrow.
    The difference is a difference, I would say, in scale, 
because now we have additional displaced people. We have a 
larger population to serve. We have more constraints. If there 
is not a permanent cessation of hostilities in this area, we 
will, as I described earlier, struggle to continue to provide 
services to internally displaced people and to refugees. We 
will have bigger funding needs. We will face different cross-
line challenges. You know, supply lines, different suppliers 
not wanting to supply us. We've withdrawn a number of our 
international staff. They have certain expertise that local 
staff does not have. So, for instance, health services are 
being curtailed in northeast Syria because much of that comes 
from outside expertise. Within that, psychosocial support, 
which we've seen to be a growing need among children, 
especially, who have seen horrific things; you don't have that 
kind of specialization necessarily locally. And local staff 
have their own threats and challenges that they're feeling in 
terms of safety.
    So, you know, the stability of our work force is also made 
more vulnerable. But, fundamentally, you know, it's those three 
things: Humanitarian access, cessation of hostilities, and, you 
know, respect for international humanitarian law and the 
protection of civilians.
    Mr. DeSaulnier. Okay. I want to focus you in the little 
time I have left first with Ms. Romero, and maybe, Ms. Ahmed, 
you could add anything on northeast Syria. So, on October 18, 
Amnesty International reported that Turkish-backed forces were 
conducting, quote, indiscriminate attacks in residential areas 
and have, quote, displayed a shameful disregard for civilian 
life. According to Amnesty International, aid groups working in 
the region, describe the U.S. withdrawal and recent fighting 
has created a, quote, combination of worst-case scenarios in 
the northeastern part of Syria, happening all at once. Is this 
an accurate assessment, and how do you see this improving or 
not improving, getting worse? Knowing that a cease-fire is what 
you want first, but after the cease-fire, you're going to deal 
with a world that hopefully allows some autonomous governing 
for the Kurds, but history tells us that has not been the 
tendency in these kind of military imbalances.
    Ms. Romero. I mean, for us, again, whether it's the Turks, 
whether it's, you know, whichever the party the conflict is, 
the request is the same. This further complicates it because 
it's an additional party to the conflict. And, yes, it will--it 
has and will exacerbate the delivery of humanitarian 
assistance.
    Mr. DeSaulnier. Ms. Ahmed, any comments? On the 
humanitarian----
    Ms. Ahmed. Many civilians were harmed when the Turkish 
government and their tanks attacked us. The city of Ras al-Ayn 
in Serekaniye has totally been destroyed because of these 
attacks. It's razed. Eighty-thousand people are outside, are 
without home. They have nowhere to go. It's a terrible 
humanitarian situation. This fight needs serious consideration, 
needs to be taken very seriously, this situation. Those who 
want to return, those who are lucky to have their house still 
over there, they're not allowed to go back. These attacks are 
not allowing people to return. So they are forcing them to be 
displaced. This cannot be called cease-fire. This is 
continuation of the war. This means that more people will be 
killed. It's being told that we save Kurds being massacred. But 
the important thing is their future should be protected by 
constitutional recognition and their basic rights. This 
administration on the ground should be recognizing formally the 
Kurdish role because all people of the region are in this 
administration. It's democratic. It's supports the integrity of 
Syria.
    Mr. DeSaulnier. Thank you. I appreciate it. The chair would 
now like to recognize the gentleman from Kentucky.
    Mr. Massie. Thank you, Mr. Chairman, for allowing me to 
participate in this subcommittee. Ms. Ahmed, is it the goal of 
the Syrian Democratic Council to establish a sovereign country 
for Kurds or an autonomous country for the Kurds?
    Ms. Ahmed. As an independent country, it's not a part of 
our project. Within the Syrian context, we want a decentralized 
government. The local administration to be set up in--within 
all Syria--like the Jazira region, Hasaka region, Halep region, 
Ladkiya region. These all should be in a decentralized system. 
This would be autonomy--local autonomy.
    Mr. Massie. Would there be one government, and who would 
provide the military defense of this decentralized government?
    Ms. Ahmed. Defense can be one but as local as well. So the 
local--the forces that is living in that region are part of the 
general forces, Syrian forces.
    Mr. Massie. Okay. Thank you very much.
    Has anybody in the U.S. Government who you can name said 
that is also the policy of the United States to establish that?
    Ms. Ahmed. The U.S. so far hasn't told us a clear policy in 
terms of Syria to us. They always told us the Syrian people 
would all--determine their future. What is the project of the 
U.S. for Syria? What do they think about the future of Syria? 
This was never communicated clearly to us. As the Syrian 
people, we gave them a project. And we wanted U.S. to support, 
we tried to get U.S. support in this framework. A Syrian 
decentralized--a democratic Syria. That they're going to have 
freedom in it.
    Mr. Massie. So there was the hope from the Kurds of this, 
but no promises from anybody in the U.S. Government to 
establish that?
    Ms. Ahmed.
    [Answers question. Not interpreted into English by the 
interpreter.]
    Mr. Massie. Thank you very much.
    Mr. Palmer, where did ISIS get the weapons that you were 
fighting against?
    Captain Palmer. Congressman, I need to be very careful 
about divulging any classified information.
    Mr. Massie. Do you--can you tell us what's been publicly 
available about where ISIS got their weapons?
    Captain Palmer. Congressman, I just need to be careful 
about stepping on any intelligence-gathering information.
    Mr. Massie. Where did the Kurds get their weapons?
    Captain Palmer. Congressman, that fell under part of our 
United States program.
    Mr. Massie. So we provide them weapons?
    Captain Palmer. Yes, Congressman.
    Mr. Massie. So we've not said we're going to take those 
weapons away, correct?
    Captain Palmer. Not to my knowledge, Congressman.
    Mr. Massie. Mr. Glaser, can you walk us through the 
beginning of the civil war in Syria and what the U.S. 
involvement was or has been?
    Mr. Glaser. Sure. So there were protests in 2011. There 
were harsh responses by the regime. It slowly turned into an 
armed rebellion, partially because at the time we had been 
completing our surge in Iraq----
    Mr. Massie. I've got 45 seconds. Can you tell us what the 
U.S. involvement was in the beginning?
    Mr. Glaser. Sure. Very early on, we ended up aiding armed 
rebels groups in Syria.
    Mr. Massie. And this was before the emergence of ISIS?
    Mr. Glaser. Well, it's difficult to say. Yes, technically 
before the big rise in 2013 and 2014, but, of course, ISIS is 
really just an outgrowth of the Sunni insurgency that rose up 
to fight U.S. Forces in Iraq. So it's hard to say what the 
beginning point would be.
    Mr. Massie. In my remaining time, I would like to ask Ms. 
Ahmed, how many Kurds have been displaced as a result of the 
civil war? Did the Kurds support the civil war at the 
beginning? And are the Kurds better off or worse off now that 
Assad has been destabilized?
    Ms. Ahmed. The Kurds have established----
    Mr. Massie. I'm sorry?
    Ms. Ahmed. Sorry. The Kurds have established a democratic 
system with Arab Syria--or Syria's Christians. In my hometown, 
I think there used to be 800,000 people living. Internally 
displaced people running away from regime. Syrian Government 
areas, they were coming to our region. They were around 100,000 
IDPs. Turkey attacked that area and those IDPs became refugees. 
For example, people are living in 10 kilometers distance of 
their home, but Turkish Government is not allowing those people 
to return to their homes. They settled Turkomans. The families 
of these Islamic groups are settled in Kurdish houses. They are 
massacring the Kurds every day. They are killing, kidnapping, 
seize their properties, kill their--burn their trees. Property 
is all stolen. So they carry out the policy of burning off 
everything in my hometown right at the moment. 800,000 Kurds of 
Afrin, they are now refugees. In the Jazira region, after the 
recent incursion, there are a number of people who are now 
refugees. People of Kobane, Darbasiyah, Ras al-Ayn, and a 
number also in Tel Abyad, including us, they were displaced. 
The policy of ethnic cleansing, massacring, is being taken--is 
being carried out in these places.
    Mr. Massie. My time is long expired. Does she have an 
answer--yes, I'll yield a minute to Mr. Cloud.
    Mr. Cloud. Thank you, Chairman.
    Thank you, Mr. Massie.
    Ms. Torres, you said something that I wanted to just clear 
up. You said that no official foreign policy process was 
followed.
    Mr. Torres. Thank you. To clarify, I am no longer in the 
State Department. So I was reflecting on some of the 
experiences that I've had in the past.
    Mr. Cloud. Okay. I just wanted to make clear, who does set 
foreign policy in our country?
    Mr. Torres. So it's actually a little complicated right now 
to determine that, but----
    Mr. Cloud. Really? Is it?
    Ms. Torres. I mean----
    Mr. Cloud. I think everybody in America know who sets 
foreign policy for our Nation. Who defines foreign policy for 
our country?
    Mr. Torres. The President.
    Mr. Cloud. Okay. So would he, therefore, also define the 
official foreign policy process?
    Mr. Torres. Yes. With advising from departments and 
agencies, including the State Department.
    Mr. Cloud. And doesn't he have the option to choose who we 
gets advice from?
    Mr. Torres. That's the President's prerogative.
    Mr. Cloud. Okay. I just wanted to clear that up because 
this is playing out in a number of different fronts, including 
what's going on in the basement of our Capitol lately among a 
number of State Department officials who don't seem to be sure 
and aware who sets foreign policy for our country. So I 
appreciate you clearing that up. Thank you.
    Mr. Torres. Thank you.
    Mr. Lynch.
    [Presiding.] The chair now recognizes the gentleman from 
California, Mr. Rouda, for five minutes.
    Mr. Rouda. Thank you, Mr. Chairman.
    The President often liked to say on the campaign trail that 
we were going to win so much that we would get tired of it and 
ask him to stop.
    Mr. President, stop. There are Kurdish allies of ours who 
are dying in the streets because of your decision against the 
advice of those around you to pull out of Syria. In fact, the 
only real winners are ISIS, Syria, Assad, Iran, Turkey, and 
Putin. We've already talked about the President's decision and 
how it would enable the return of ISIS. The Syrian regime is 
backfilling in areas that we have controlled for quite some 
time.
    Ms. Torres, have you seen evidence of that already, 
territory that had been held by the United States, that has not 
been held by Assad for years, being reclaimed by the Syrian 
government?
    Mr. Torres. I'm sorry. Can you repeat the last part of----
    Mr. Rouda. The land that was being held by the Kurds, with 
support from the U.S., is Syria taking over parts of that, and 
is that areas that have not been controlled by Syria for quite 
some time?
    Mr. Torres. We have seen reports of that, but I may want to 
defer to my colleague. But we have seen reports of that.
    Mr. Rouda. In President Trump's cease-fire deal with 
Turkey, Turkey denied it was actually a cease-fire, seemingly 
failed to hold, and the parameters of its safe zone were so 
unclear that it would be almost impossible to enforce anyways. 
In fact, testimony in front of the Senate Foreign Relations 
Committee yesterday, it appears the U.S. delegation didn't even 
use a map when negotiating the safe zone with Turkey. And, yes, 
my colleague is right that the President is the arbitrator of 
foreign policy. It's just unfortunate that it looks like the 
Keystone Cops are the ones that are driving our foreign policy 
right now.
    Yesterday, Turkish President Erdogan and President Putin 
agreed to remove Kurdish forces from the Syrian/Turkish border, 
making Putin the key power broker in the region.
    Ms. Ahmed, can you tell us what your reaction to that deal 
is, that took place yesterday?
    Ms. Ahmed. This deal imposes SDF forces to go withdraw from 
the border area. So up to 30 kilometers, this area is left to 
Turkey. That poses a serious threat on our safety and security 
because the regime has not done any democratic changes so far, 
and the same mentality coming from regime forces also pose a 
threat for us. Turkish and Russian patrol and the regime, it's 
very--it's a dangerous situation for us, for the Kurds. What 
they say to us: You either have to withdraw, or we're going to 
let Turkey attack you.
    Mr. Rouda. Okay. Thank you. Mr. Palmer, I think you've seen 
the TV coverage of U.S. bases being overrun and controlled by 
Russian forces. How does that make you feel?
    Captain Palmer. Congressman, I'm only going to talk to my 
experience in Syria during 2017. I'm not necessarily qualified 
to speak to the current----
    Mr. Rouda. I'm not asking you from an official capacity. 
I'm just asking you as a person who has served the government 
and our country in a patriotic way. How does that make you 
feel?
    Captain Palmer. Congressman, I'm just not going to testify 
to other than my experience.
    Mr. Rouda. Ms. Torres, do you have any comments in that 
area?
    Ms. Torres. I think, on our end, on behalf of The Soufan 
Center, and as an American, I think that it's difficult to turn 
away from allies who we've depended on for a very long time to, 
in a way, protect us from the terrorist threat that we face 
emanating from ISIS in Iraq and Syria. So to see that happen so 
abruptly and without a policy and without a process and without 
diplomacy was really hard to swallow.
    Mr. Rouda. Mr. Chairman, thank you for having this hearing, 
because it's repeated over and over the foreign policy mistakes 
of this administration. What has transpired in Ukraine, where 
crimes were committed, yet the continued cover-up by those 
involved and those who will support this President to no end, 
regardless of the obvious wrongdoing, is disheartening to all 
of us.
    Thank you. I yield back.
    Mr. Lynch. I thank the gentleman.
    The gentleman yields back.
    I would like to thank all of our witnesses who have come 
here today, majority and minority witnesses. Thank you for your 
excellent testimony.
    Ms. Ahmed and Mr. Civiroglu, thank you for being here and 
traveling such a long way to provide the perspective that I 
think only you could provide. So we are extremely grateful for 
your courage and your willingness to come here today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for a response.
    I will ask our witnesses to please respond as promptly as 
you are able if you receive additional questions.
    Mr. Lynch. This hearing is now adjourned. Thank you.
    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
